                                     Office of the Special Inspector General
                   SIGAR         I   for Afghanistan Reconstruction




June 21, 2013


Lieutenant General Thomas B. Bostick
 Commanding General and Chief of Engineers
 U.S. Army Corps of Engineers

Dr. Rajiv Shah
 Administrator, U.S. Agency for International Development

Ms. Sarah W. Wines
 USAID Acting Mission Director for Afghanistan


An urgent safety matter has come to my attention that I believe requires immediate action. Specifically, I want
to alert you to serious safety risks at the Sheberghan teacher training facility in Jawzjan province, Afghanistan.

My office recently conducted an inspection of the Sheberghan teacher train ing facility, and is in the process of
preparing a report on it.i While this report will be completed in the next few weeks, we believe the potential
safety risks at this facility are of such a magnitude that we could not delay bringing them to your attention .

Our inspection of the Sheberghan facil ity found problems with the electrical, water, and sewage systems that
could pose potentially serious health and safety hazards for its occupants. SIGAR inspectors found that the
facility's electrical wiring does not meet the U.S. National Electrical Code-as required by the contract- and
other problems that create potential electrocution risks and fire hazards for its occupants.

Although the facility currently does not receive power from the electrical generator provided under the contract,
serious risk for its occupants are present due to improper entry into the electrical system-known as a "tap"-
and by the improper connection to an alternative electrical power supply. In addition to the electrocution
hazard, the facility currently lacks operational water and sewage systems, raising potential health issues for
the building occupants.

Despite the fact that the building is sti ll under construction, our inspectors found that the Afghans have already
begun using the building. As you know, the U.S. government is still responsible for the facility's operations and
maintenance and any occupational health and safety issues because the U.S. Agency for International
Development has not yet transferred the faci lity to the Afghan government. This underscores the immediacy of
these hazards. Given the potential harm to the students, faculty, and others who are occupying the
Sheberghan facility, we believe USAID should take all necessary and appropriate measures to address the
safety risks discussed in this letter as soon as possible. Our inspection report will include recommendations to
address these and other matters and will be provided to you as soon as it is completed. In the meantime, my




l in February 2009, the U.S. Army Corps of Engineers, under an agreement with the U.S. Agency for International
Development, awarded a $2.9 million contract-increased to a total contract value of $3.4 million-to Mercury Development
for the construction of three teacher training facilities, one of which was to be located in Sheberghan in Jawzjan province.




1550 Crystal Drive, 9th Floor   Mall: 2530 Crystal Drive               Tel: 703 545 6000   www.slgar.mll
Arlington, VIrginia 22202       Arlington, VIrginia 22202-3940
staff is available to brief you on our findings and proposed actions. We also will be asking the U.S. Embassy in
Kabul to notify the Afghan Ministry of Education of these health and safety concerns.

Should you or your staff have any questions or need additional information, please contact Elizabeth Field,
Assistant Inspector General for Audits and Inspections, at 703-545-6006 or Elizabeth.a.field9.civ@mail.mil.
Thank you in advance for your cooperation.




                   eneral
 for Afghanistan Reconstruction



cc:

The Honorable James B. Cunningham
  U.S. Ambassador to Afghanistan

General Lloyd J. Austin Ill
Commander, U.S. Central Command

General Joseph F. Dunford, Jr.
 Commander, U.S. Forces-Afghanistan, and
 Commander, International Security Assistance Force

Lieutenant General Mark A. Milley
 Commander, International Security Assistance Force Joint Command




SIGAR SP-13-6 Safety Alert: Sheberghan Teacher Training Facility                                           Page 2
